               Office of Inspector General




March 27, 2006

GEORGE L. LOPEZ
VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

WILLIAM J. BROWN
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

SUBJECT: Audit Report – Mail Processing Operations in the
         Wake of Hurricanes Katrina and Rita (Report Number NO-MA-06-002)

This report presents the results of our self-initiated review of mail processing operations
in the wake of Hurricanes Katrina and Rita (Project Number 06YG007NO000).1 Our
objective was to assess the Postal Service’s efforts to reestablish mail processing
operations in the aftermath of these disasters. This was a self-initiated review, which
we conducted in cooperation with Postal Service Headquarters, the Southeast and
Southwest Areas, and associated districts.

Our review found that the Postal Service successfully reestablished mail processing
operations in the aftermath of the hurricanes. The Postal Service implemented
emergency management plans to move the mail, assessed damage to the mail
processing network, and quickly reestablished mail processing operations in the Gulf
Coast region. Through these efforts, the Postal Service was able to process mail as
close to normal as could be expected under the circumstances.

While these actions were commendable, we identified several issues which could
improve the Postal Service’s response to future disasters. These issues included not:
providing an adequate communications structure; identifying adequate contingency
sites outside the hurricane zone; and securing adequate back-up power supplies.
Consequently, mail processing recovery efforts were hampered, which contributed to
some mail being delayed or not delivered. We made three recommendations in this
report.

Management agreed with our findings and recommendations and has initiatives in
progress, completed, or planned addressing the issues in this report. Management’s
comments and our evaluation of these comments are included in the report.




1
    This report is one in a series of reviews of the Postal Service’s response to Hurricanes Katrina and Rita.
We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Robert J.
Batta, director, Network Operations - Processing, or me at (703) 248-2300.

 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI




Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: William P. Galligan
    Thomas G. Day
    Paul E. Vogel
    Henry A. Pankey
    David E. Williams
    Steven R. Phelps
Mail Processing Operations in the Wake                    NO-MA-06-002
 of Hurricanes Katrina and Rita




                                   TABLE OF CONTENTS


 Executive Summary                                                i

 Part I

 Introduction                                                    1

     Background                                                  1
     Objective, Scope, and Methodology                           3
     Prior Audit Coverage                                        4

 Part II

 Audit Results                                                   5

    Mail Processing Operations                                   5
    Recommendations                                             11
    Southwest Area Management’s Comments                        12
    Evaluation of Management’s Comments                         12
    Southeast Area Management’s Comments                        12
    Evaluation of Management’s Comments                         13

 Appendix A.      Emergency Preparedness Plans Reviewed         14
 Appendix B.      Examples of Commendable Actions               15
 Appendix C.      Mail Processing Operational Issues            16
 Appendix D.      Management’s Comments                         17
Mail Processing Operations in the Wake                                                             NO-MA-06-002
 of Hurricanes Katrina and Rita


                                      EXECUTIVE SUMMARY
    Introduction                  We reviewed mail processing operations in the wake of
                                  Hurricanes Katrina and Rita (Project Number
                                  06YG007NO000).2 Our objective was to assess the Postal
                                  Service’s efforts to reestablish mail processing operations in
                                  the aftermath of these disasters. This was a self-initiated
                                  review, which we conducted in cooperation with Postal
                                  Service Headquarters, the Southeast and Southwest Areas,
                                  and associated districts.

    Results in Brief              Our review found that the Postal Service successfully
                                  reestablished mail processing operations in the aftermath of
                                  the hurricanes. Under very difficult circumstances, the
                                  Postal Service implemented emergency management
                                  plans3 to move the mail, assessed damage to the mail
                                  processing network, and quickly reestablished mail
                                  processing operations in the Gulf Coast region. Through
                                  these efforts, the Postal Service was able to process mail as
                                  close to normal as could be expected under the
                                  circumstances.

                                  While these actions were commendable, we identified
                                  several issues which could improve the Postal Service’s
                                  response to future disasters. These issues included not:
                                  providing an adequate communications structure; identifying
                                  adequate contingency sites outside the hurricane zone; and
                                  securing adequate back-up power supplies. We also found
                                  undelivered mail at the New Orleans, Louisiana, Processing
                                  and Distribution Center, which was subsequently disposed.

                                  These issues occurred because the magnitude and timing
                                  of both hurricanes was unprecedented and contingency
                                  plans did not specifically address key recovery issues.
                                  However, we recognize it is not always possible to predict
                                  required recovery actions. Furthermore, First-Class Mail
                                  and accountable mail took priority over the disposition of
                                  other classes of mail.




2
 This report is one in a series of reviews of the Postal Service’s response to Hurricanes Katrina and Rita.
3
 Contingency plans refer to a multitude of different documents used by local offices to respond to the emergency
such as Integrated Emergency Management Plans (IEMP), Continuity of Operations Plans (COOP), and Hurricane
Action Plans. (See Appendix A.)



                                                         i
Mail Processing Operations in the Wake                                             NO-MA-06-002
 of Hurricanes Katrina and Rita



                               Consequently, mail processing recovery efforts were
                               hampered, which contributed to some mail being delayed or
                               not delivered.

 Summary of                    We recommended the Postal Service revise, validate, and
 Recommendations               utilize a communications plan, assess existing mail
                               processing contingency sites, and assess electrical
                               requirements at mail processing facilities.

 Summary of                    Management agreed with our findings and
 Management’s                  recommendations. They agreed to utilize a structured
 Comments                      communications plan using the Integrated Emergency
                               Management principles and establish points of contact to
                               facilitate communications for future emergencies.
                               Management also agreed to assess existing contingency
                               sites for mail processing to identify feasible alternatives and
                               ensure they have contingencies for continued operations
                               during future emergencies. Finally, management agreed to
                               assess electrical facility requirements in the Gulf Coast
                               region and match those requirements to appropriate
                               generators to ensure the necessary power for full operation
                               in future emergencies. Management’s comments, in their
                               entirety, are included in Appendix D of this report.

 Overall Evaluation of         Management’s comments are responsive to our
 Management’s                  recommendations. Management’s actions taken or planned
 Comments                      should correct the issues identified in the report.




                                                ii
Mail Processing Operations in the Wake                                                             NO-MA-06-002
 of Hurricanes Katrina and Rita


                                            INTRODUCTION
    Background                    On August 29, 2005, at 6:10 a.m., Hurricane Katrina, a
                                  Category 4 storm, made landfall in Plaquemines Parish,
                                  Louisiana, just south of the city of New Orleans. Up to
                                  15 inches of rain fell in the hardest-hit areas of Louisiana.
                                  The combination of rainfall and storm surge breached the
                                  system of levies protecting New Orleans and subsequently
                                  flooded a majority of the city. After making landfall south of
                                  New Orleans, the storm moved inland affecting parts of
                                  eastern Louisiana, Mississippi, and Alabama. The National
                                  Hurricane Center says Katrina may be the worst natural
                                  disaster in the history of the U.S.

                                  Hurricane Katrina’s force and subsequent flooding were
                                  extremely destructive to postal facilities and operations.
                                  By the time the storm passed on August 30, 2005, the
                                  New Orleans, Louisiana, Processing and Distribution Center
                                  (P&DC) had sustained significant damage and was
                                  incapable of processing mail. Additionally, the processing
                                  plants in Gulfport, Mississippi, and Mobile, Alabama,
                                  sustained significant damage and/or experienced power
                                  loss, which halted their mail processing operations.
                                  Collectively, these facilities processed approximately
                                  104.7 million pieces of mail during the month of
                                  August 2005 and served a delivery area of approximately
                                  2.2 million people.

                                  Less than a month later, on September 24, 2005, Hurricane
                                  Rita hit the Texas-Louisiana border as a Category 3 storm.
                                  Parts of Louisiana were again flooded along with a large
                                  area of southeast Texas. Facilities affected in the Houston
                                  District included North Houston, Texas, P&DC; Beaumont,
                                  Texas, P&DC; and Beaumont, Texas, Remote Encoding
                                  Center (REC).4 Although they experienced power outages
                                  and/or brief shut-downs due to mandatory evacuations,
                                  storm damage at these facilities was limited. (See map
                                  below for locations of affected mail processing facilities.)
                                  These facilities processed approximately 144.9 million




4
  Remote encoding centers are units that use advanced technology to assign barcodes to hand-addressed
mailpieces. The Beaumont REC provides services to over 40 Postal Service processing facilities located throughout
the U.S.
                                                        1
Mail Processing Operations in the Wake                                                                NO-MA-06-002
 of Hurricanes Katrina and Rita



                                   pieces of mail during the month of August 2005 and served
                                   a delivery area of approximately 5 million people.




                                                    © 2005 Rand McNally & Company R.L. 06-S-12
                                       Location of Mail Processing Facilities Affected by Hurricanes
                                                             Katrina and Rita

                                   U.S. Postal Service officials advised us that five processing
                                   plants and one REC were affected by the hurricanes and
                                   sustained some form of damage. The New Orleans P&DC
                                   sustained the most damage from wind, storm surge, and
                                   flooding. This facility is not scheduled to reopen until
                                   April 2006. The other facilities sustained lesser degrees of
                                   damage. (See Table 1 below.)
                                                                             5
                                   Table 1: Mail Processing Facilities

                                                       New                                               North
                                                      Orleans          Gulfport         Mobile          Houston
                                      Issues          P&DC              P&DF            P&DC             P&DC
                                   Facility
                                   Damage           Yes             Yes              Yes             No
                                   Severity of
                                   Damage           Major6          Moderate7        Minor8          None
                                   Processing
                                   Operations       Yes             Yes              Yes             Yes
                                   Affected
                                   Days Down
                                   Without          156 days9       8 days           3 days          1 day
                                   Power



5
  While the Beaumont P&DC and Beaumont REC were impacted by the hurricanes, there was minimal impact on
mail processing operations.
6
  Major damage includes a facility which is currently closed due to flooding, storm surge, wind damage, and loss of
power.
7
  Moderate damage includes facilities closed temporarily (less than 10 days) due to flooding, storm surge, wind
damage, and loss of power.
8
  Minor damage includes facilities closed temporarily (less than 4 days) due to wind damage and loss of power.
                                                          2
Mail Processing Operations in the Wake                                                          NO-MA-06-002
 of Hurricanes Katrina and Rita



                                 The Postal Service’s Office of Emergency Preparedness is
                                 responsible for providing guidance and overseeing the
                                 development, implementation, and coordination of
                                 emergency preparedness plans to protect employees,
                                 customers, operations, and mail during disasters and other
                                 national emergencies. However, decisions on mail
                                 processing operations during disasters and national
                                 emergencies are performed by district, area, and
                                 headquarters’ management.

    Objective, Scope, and        The objective of this review was to assess the Postal
    Methodology                  Service’s efforts to reestablish mail processing operations in
                                 response to Hurricanes Katrina and Rita.

                                 We conducted this review from October 2005 through
                                 March 2006 in accordance with the President’s Council on
                                 Integrity and Efficiency, Quality Standards for Inspections.

                                 We reviewed applicable Postal Service and other federal
                                 policies and procedures. We also reviewed selected IEMPs
                                 and COOPs for the affected areas, districts, and selected
                                 large facilities. (See Appendix A.) During our review, we
                                 interviewed Postal Service officials to gain an understanding
                                 of the procedures executed after landfall of Hurricanes
                                 Katrina and Rita. We reviewed relevant documentation
                                 from the Postal Service including after-action reports. We
                                 also visited the New Orleans P&DC, Port Allen, and St.
                                 Rose mail facilities.

                                 We minimized our contact with Postal Service officials and
                                 postponed site visits to postal facilities while they were still
                                 in the process of recovery, in order to afford them the
                                 opportunity to maximize their attention on the recovery
                                 efforts. This limited our ability to gather information on
                                 recovery efforts and inspect damaged facilities immediately
                                 following both hurricanes. However, Postal Service officials
                                 at all levels cooperated with the U.S. Postal Service Office
                                 of Inspector General (OIG) and provided us with information
                                 throughout our review while continuing to focus efforts on
                                 reestablishing postal operations in the affected areas.




9
 As of January 31, 2006, the New Orleans P&DC has been down for 156 days and is not scheduled to reopen until
April 2006.
                                                       3
Mail Processing Operations in the Wake                                            NO-MA-06-002
 of Hurricanes Katrina and Rita



                               We discussed our observations and conclusions with
                               management officials and included their comments where
                               appropriate.

 Prior Audit Coverage          The OIG issued a report titled Audit of Postal Inspection
                               Service’s Emergency Preparedness (Report Number
                               SA-AR-05-001, dated January 5, 2005). The review found
                               that the Postal Service established the IEMP as the one
                               plan to address and manage incidents associated with
                               human-caused, natural, and/or technological emergencies
                               that pose a threat to Postal Service employees, customers,
                               and facilities. However, the Postal Inspection Service IEMP
                               was not finalized and implemented nationwide; therefore,
                               application of emergency preparedness guidance may not
                               be consistent from division to division and incident to
                               incident. The Postal Inspection Service agreed and stated
                               all divisions would have the IEMP consistent with national
                               guidance and policy by February 2005.

                               The U.S. Government Accountability Office (GAO) issued
                               a report on Continuity of Operations (Report Number
                               GAO-04-160, dated February 27, 2004). GAO compared
                               34 federal agencies’ COOPs to Federal Emergency
                               Management Agency (FEMA) guidance. The GAO found
                               the agencies did not identify all essential functions in their
                               plans. The GAO also found that FEMA did not review the
                               essential functions when assessing COOP planning and did
                               not conduct tests or exercises to confirm essential functions
                               were identified. FEMA has begun making such
                               improvements.




                                                4
Mail Processing Operations in the Wake                                                                 NO-MA-06-002
 of Hurricanes Katrina and Rita


                                             AUDIT RESULTS
 Mail Processing                    Our review found that the Postal Service successfully
 Operations                         reestablished mail processing operations in the aftermath of
                                    the hurricanes. Under very difficult circumstances, the
                                    Postal Service implemented emergency management plans
                                    to move the mail, assessed damage to the mail processing
                                    network, and quickly reestablished mail processing
                                    operations in the Gulf Coast region. Through these efforts,
                                    the Postal Service was able to process mail as close to
                                    normal as could be expected under the circumstances.

                                    While these actions were commendable, we identified
                                    several issues which could improve responses to future
                                    disasters. These issues included not: providing an
                                    adequate communications structure; identifying adequate
                                    contingency sites outside the hurricane zone; and securing
                                    adequate back-up power supplies. We also found
                                    undelivered mail at the New Orleans P&DC, which was
                                    subsequently disposed.

                                    These issues occurred for several reasons. The sheer
                                    magnitude and timing of both hurricanes, as well as the
                                    displacement of hundreds of thousands of customers and
                                    hundreds of employees from the impacted areas, was
                                    unprecedented. The emergency management plans did not
                                    specifically address key recovery issues. However, we
                                    recognize it is not always possible to predict required
                                    recovery actions. Furthermore, First-Class Mail and
                                    accountable mail took priority over the disposition of other
                                    classes of mail.

                                    Consequently, mail processing recovery efforts were
                                    hampered, which contributed to some mail being delayed or
                                    not delivered.

 Commendable Actions                Our review found that the Postal Service successfully
 Taken                              maintained some mail processing operations by
                                    implementing contingency plans days before Hurricane
                                    Katrina made landfall. As early as August 27, 2005, the
                                    Postal Service:

                                        •    Placed an embargo on the acceptance of
                                             Standard Mail10 to be processed and delivered in
                                             the New Orleans area.
10
   Standard Mail – A class of mail that includes advertisements, circulars, newsletters, magazines, small parcels, and
merchandise. Service standards for Standard Mail are 3 to 10 days.
                                                          5
Mail Processing Operations in the Wake                                                           NO-MA-06-002
 of Hurricanes Katrina and Rita



                                      •    Began diverting mail from the New Orleans P&DC to
                                           the Houston P&DC for processing.

                                  At the Houston P&DC, Postal Service officials addressed
                                  the additional workload generated by the acceptance of the
                                  New Orleans mail by:

                                       •   Hiring casual employees.

                                       •   Setting up more shift schedules.

                                       •   Installing a Postal Automated Redirection System11
                                           to expedite processing of change of address
                                           requests.

                                       •   Using displaced New Orleans employees to help
                                           with processing operations.

                                  Postal Service officials in Mississippi and Alabama also took
                                  actions to mitigate disruptions to the mail processing
                                  network caused by Hurricane Katrina. For example:

                                      •    The Mobile P&DC performed additional work on
                                           Sunday, August 28, 2005, to process mail in advance
                                           of the storm and sent an extra dispatch out that day
                                           to move more mail out of the plant. Management
                                           then shut down plant operations to allow employees
                                           to go home to their families. The P&DC resumed
                                           operations on Tour 1, Thursday, September 1, 2005,
                                           after restoring power and repairing the roof.

                                      •    The Gulfport Processing and Distribution Facility
                                           (P&DF) moved First-Class Mail processing
                                           operations to their contingency site in Jackson,
                                           Mississippi after the storm damaged it. The Gulfport
                                           P&DF was without power for 8 days but was able to
                                           resume full operations just 13 days after the storm.




11
  Postal Automated Redirection System is a system designed to intercept and process undeliverable as addressed
mail using automated techniques.
                                                       6
Mail Processing Operations in the Wake                                                 NO-MA-06-002
 of Hurricanes Katrina and Rita



                               In the hurricane’s aftermath, the Postal Service began to
                               assess damage and implement plans for maintaining mail
                               service to customers by:

                                   •     Establishing temporary mail processing facilities in
                                         Port Allen and St. Rose, Louisiana. (See photograph
                                         below of Port Allen, Louisiana.)




                                          Photograph 1: Port Allen, LA Processing Facility

                                   •     Setting up post offices in storm shelters and other
                                         temporary locations for distribution of mail and Social
                                         Security checks. (See photograph below.)




                               Photograph 2: Baton Rouge P&DC Clerk Sorts New Orleans Social
                                                     Security Checks




                                                   7
Mail Processing Operations in the Wake                                                                NO-MA-06-002
 of Hurricanes Katrina and Rita


                                        •    Setting up special procedures for pulling and
                                             forwarding remittance mail12 to business customers.

                                        •    Processing over 500,000 change-of-address forms
                                             for customers displaced by the storms. (See
                                             Appendix B for details of the actions listed in this
                                             section.)

                                   In spite of the significant challenges imposed as a result of
                                   the hurricanes, the Postal Service transformed mail
                                   processing operations and established temporary facilities
                                   to minimize disruptions to service. Through these efforts,
                                   the Postal Service was able to process mail as close to
                                   normal as could be expected under the circumstances.

                                   Overall, these actions ensured continuity of service for the
                                   majority of the area. Additionally, the mail destined for
                                   those areas most severely impacted by the hurricanes was
                                   processed and ready to be delivered as soon as officials
                                   declared those areas safe again.

 Lessons Learned                   While the Postal Service did a commendable job
                                   reestablishing mail processing operations in the wake of the
                                   hurricanes, we identified the following issues which could
                                   improve the Postal Service’s response to future disasters.
                                   (See Appendix C.)

                                        •    Better coordination of internal communications:
                                             According to Postal Service area officials,
                                             headquarters required numerous teleconferences
                                             each day. Also, headquarters officials were
                                             requesting reports or information from multiple
                                             sources, which diverted energy and focus needed for
                                             restoring Postal Service mail operations.13
                                             Additionally, facility requests for assistance came
                                             from various sources because they did not use a
                                             central point of contact for making these requests,
                                             resulting in duplication of efforts and wasted time.

                                        •    Mail processing contingency sites inadequate:
                                             Postal Service officials redirected the New Orleans

12
   Remittance mail is the largest segment of First-Class Mail and a vital component of the Postal Service business.
Remittance mail is comprised of bills, statements, and payments which are transported between billers and
consumers and business customers.
13
   These issues impacted mail processing operations; however, these issues may also have impacted other areas
during recovery efforts. Therefore, these issues will be addressed in the OIG’s overall report on Postal Service
Emergency Preparedness — Hurricane Katrina.
                                                          8
Mail Processing Operations in the Wake                                                                  NO-MA-06-002
 of Hurricanes Katrina and Rita


                                             mail out of the path of Hurricane Katrina by moving
                                             these operations to the contingency site in Houston.
                                             Unfortunately, less than a month later, these
                                             operations were impacted as Hurricane Rita hit the
                                             city of Houston. The North Houston P&DC
                                             operations were shut down for 2 days due to
                                             mandatory evacuations, which further impeded the
                                             processing of New Orleans mail. In addition, the
                                             Gulfport P&DF was required to move the mail
                                             processing operations to the third contingency site
                                             due to hurricane damage incurred at the first and
                                             second contingency sites (New Orleans, Mobile).

                                         •   Back-up power not available: The Gulfport and
                                             Mobile facilities did not have power after the
                                             hurricane and received generators for temporary
                                             power needs. However, neither site was electrically
                                             or structurally equipped to utilize these generators.
                                             City power was restored at both locations before the
                                             generators could be used. (See photograph below
                                             for an example of a generator in use at the St. Rose
                                             facility.)




                                      Photograph 3: Electrical Generator and Fuel Supply Tank in Use


                                         •   Undelivered mail at the New Orleans P&DC: In
                                             December 2005 we observed significant amounts of
                                             undelivered Periodicals14 and Standard Mail (some
                                             dated prior to the hurricanes) at the New Orleans

14
   Periodicals – A class of mail that includes newspapers, magazines, and other periodical publications whose
primary purpose is transmitting information to an established list of subscribers or requesters. Service standards for
Periodicals are 1 to 7 days.
                                                           9
Mail Processing Operations in the Wake                                                  NO-MA-06-002
 of Hurricanes Katrina and Rita


                                         P&DC. The P&DC suspended operations on
                                         August 28, 2005, in anticipation of Hurricane Katrina
                                         and as of the date of this report had not resumed
                                         operations due to extensive damage. Postal Service
                                         officials estimated there were approximately
                                         10 trailers of this mail left in the facility which was not
                                         processed timely. (See photographs below.)




                                     Photograph 4: Periodicals Staged in New Orleans P&DC




                                          Photograph 5: Containers of Mixed Standard Mail




                                                Photograph 6: Pallets of Periodicals




                                                   10
Mail Processing Operations in the Wake                                                                 NO-MA-06-002
 of Hurricanes Katrina and Rita



 Management Actions                 On September 16, 2005, the Postal Service established
 Taken                              specific procedures15 for the disposition of the Periodicals
                                    and Standard Mail destined for those ZIP Codes most
                                    affected by the hurricanes. New Orleans District
                                    management held meetings with mailers and customers
                                    who indicated they did not want the outdated mail delivered.
                                    Between December 19, 2005, and January 31, 2006, local
                                    management disposed of approximately seven trailer loads
                                    of Standard Mail from the New Orleans P&DC and sent
                                    approximately three trailer loads of Periodicals Mail to the
                                    Dallas Bulk Mail Center in accordance with instructions
                                    issued by the Southwest Area. Following communications
                                    with Periodical mailers, this mail will be disposed of through
                                    recycling. Therefore, we are not making any
                                    recommendations in this area.

 Recommendations                    We recommended the vice presidents, Southeast and
                                    Southwest Area Operations:

                                        1. Revise, validate, and utilize a structured
                                           communication plan, as required by the IEMP, with
                                           established points of contact to facilitate
                                           communications to and from headquarters, areas,
                                           districts, and affected facilities for future
                                           emergencies.

                                        2. Assess existing mail processing contingency sites for
                                           plants in areas likely to be threatened by future
                                           hurricanes and establish new sites in areas outside
                                           the hurricane zone, where feasible.

                                        3. Assess electrical requirements of facilities in the
                                           hurricane-prone area to ensure that generators will
                                           function properly.




15
  Temporary Processing, Distribution and Routing Changes Due to Hurricane Katrina – Issuance Update Number 2,
September 16, 2005. Postal Service issued a temporary policy which provided instructions for the disposition of
Periodicals and Standard Mail. Instructions require that the customer must be contacted prior to disposal of the mail.
Written confirmation from the mailer must be provided before disposition.
                                                          11
Mail Processing Operations in the Wake                                             NO-MA-06-002
 of Hurricanes Katrina and Rita




 Southwest Area                Southwest Area management agreed with our findings and
 Management’s                  recommendations. They agreed to establish a structured
 Comments                      and systematic communications plan as required by the
                               IEMP. They have established a new notification system for
                               employees and an Emergency Operations Center where the
                               Emergency Management Team will meet. The Emergency
                               Management Team includes the Emergency Management
                               Coordinating Committee as instructed in the IEMP.

                               Southwest Area management also agreed to review plans
                               to ensure that contingency sites are established outside the
                               hurricane zone, where feasible. They plan to have
                               contingencies for all eventualities during future
                               emergencies.

                               In addition, Southwest Area management will work with the
                               Facility Service Office to ensure processing facilities in the
                               hurricane zone are properly prepared to deploy generators.

 Evaluation of                 Comments from the Southwest Area’s management are
 Management’s                  responsive to our recommendations. Management’s
 Comments                      actions taken or planned should correct the issues identified
                               in the findings.

 Southeast Area                Southeast Area management agreed with our findings and
 Management’s                  recommendations. At after-action meetings held to discuss
 Comments                      lessons learned from the hurricanes, they discussed
                               communications issues extensively. Follow-up actions were
                               initiated to address communications issues, including steps
                               to establish a structured and systematic communications
                               plan using IEMP management principles for future
                               emergencies.

                               Southeast Area management will review continuity of
                               operations plans to ensure that contingency sites selected
                               are feasible alternatives for establishing continued
                               operations during emergencies.

                               Southeast Area management will also work with the Facility
                               Services Office to ensure all processing facilities in the
                               hurricane zone are properly prepared for emergency
                               electrical connections.


                                                12
Mail Processing Operations in the Wake                                           NO-MA-06-002
 of Hurricanes Katrina and Rita


 Evaluation of                 Comments from the Southeast Area’s management are
 Management’s                  responsive to our recommendations. Management’s
 Comments                      actions taken or planned should correct the issues identified
                               in the findings.




                                               13
Mail Processing Operations in the Wake                                   NO-MA-06-002
 of Hurricanes Katrina and Rita




                                         APPENDIX A

              EMERGENCY PREPAREDNESS PLANS REVIEWED



   •   Gulfport P&DF – 2004/2005 Hurricane Preparedness Plan, dated June 3, 2005.

   •   Houston District – IEMP Version D-1.2, dated March 2004. Updated
       February 2005. Revised Appendix B (COOP), dated August 2005. No
       Appendix A or C.

   •   Jackson P&DC – IEMP Appendix B (COOP), dated June 2004.

   •   Louisiana District – IEMP Appendix B (COOP), dated August 2005.

   •   Mobile P&DC – COOP/Occupant Emergency Plan, revised April 2005.

   •   Mobile P&DC – IEMP Appendix B (COOP), dated April 2005.

   •   New Orleans P&DC – IEMP, Version I-1.2, dated March 2004. Does not include
       Appendix A, B, or C.

   •   Southeast Area – Hurricane/Tropical Storm procedure, dated June 2005. The
       areas are not required to have an IEMP. However, the Southeast Area
       developed and used their own emergency plan for hurricanes and tropical
       storms, dated June 2005.




                                             14
Mail Processing Operations in the Wake                                       NO-MA-06-002
 of Hurricanes Katrina and Rita




                                         APPENDIX B

                   EXAMPLES OF COMMENDABLE ACTIONS


Temporary Mail Processing Facility – The Postal Service immediately
recognized the need to reestablish mail processing for the New Orleans area. By
mid-September 2005, they leased a facility in Port Allen, Louisiana, and established a
temporary mail processing facility to help process mail for areas affected by the
hurricane. Mail processing equipment from the damaged New Orleans P&DC and
other facilities was moved to the Port Allen facility to expedite operations. St. Rose,
originally a mail transport equipment warehouse, was also converted into a mail
processing facility and processed some of the New Orleans mail.

Temporary distribution locations – The storm disrupted mail service at the
beginning of September 2005 when most Social Security checks, as well as other
federal aid checks, are disbursed. The Postal Service, Social Security Administration,
and Department of the Treasury worked closely together to ensure displaced residents
received their checks. The Postal Service and Social Security Administration
communicated daily to develop and update plans that would quickly get checks in the
hands of beneficiaries. The Postal Service established temporary post offices in the
Houston Astrodome, the New Orleans Superdome, and other shelters to ensure that
displaced residents had access to these checks and other critically important mail.

Remittance Mail – The Postal Service, recognizing the importance of Remittance Mail,
worked with New Orleans customers to reroute this mail. The Postal Service invited
customers into the North Houston plant to review the handling of this mail. The Postal
Service created special sort plans and transportation schedules to expedite the dispatch
of Remittance Mail.

Change-of-Addresses – The Postal Service conducted extensive public relations
campaigns urging displaced residents to complete a change-of-address (COA) form.
Postal Service representatives appeared in numerous media communications and the
Postmaster General appeared on national television to encourage displaced residents
to complete these forms. By the end of October 2005, approximately 500,000 COA
forms had been filed with the Postal Service.




                                             15
Mail Processing Operations in the Wake                                              NO-MA-06-002
 of Hurricanes Katrina and Rita




                                          APPENDIX C

                  MAIL PROCESSING OPERATIONAL ISSUES



                                           New                               North
                                         Orleans        Gulfport   Mobile   Houston
                  Issues                  P&DC           P&DC      P&DC      P&DC
         Was Communication
         Adequate?                         No             No        No        No
         Was Back-up Facility
         Appropriate?                      No             No        N/A       N/A
         Was Generator
         Deployment                       Yes             No        No        N/A
         Successful?
         Was Undelivered Mail
         Left in the Facility?            Yes             No        No        No




                                                   16
Mail Processing Operations in the Wake                NO-MA-06-002
 of Hurricanes Katrina and Rita


                  APPENDIX D. MANAGEMENT’S COMMENTS




                                         17
Mail Processing Operations in the Wake        NO-MA-06-002
 of Hurricanes Katrina and Rita




                                         18
Mail Processing Operations in the Wake        NO-MA-06-002
 of Hurricanes Katrina and Rita




                                         19
Mail Processing Operations in the Wake        NO-MA-06-002
 of Hurricanes Katrina and Rita




                                         20
